CERTIFICATE OF COMPLIANCE
No. 20-843
NEW YORK STATE RIFLE & PISTOL
ASSOCIATION, INC., ET AL.,
Petitioners,
v.
KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
ACTING SUPERINTENDENT OF NEW YORK STATE
POLICE, ET AL.,
Respondents.
As required by Supreme Court Rule 33.1(h), I
certify that the Brief of Amici Curiae The Liberal Gun
Club and Commonwealth Second Amendment in
Support of Petitioners contains 5,894 words, excluding
the parts of the Brief that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on July 20, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor’s Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Sworn to and subscribed before me by said Affiant
on the date designated below.

Date:

Notary Public
[seal]

